              CLOSEOUT MEMORANDUM FOR M-99110056

On November 30, 1999, we received an allegation of misconduct in science from the
complainant.' The complainant alleged that her former graduate advisor, the ~ubject,~
plagiarized material into an NSF proposal. The complainant neither identified the
specific NSF proposal nor the source document(s) from which the alleged material was
copied. The complainant agreed to provide this specific information about the alleged
plagiarism, but, despite a personal interview, several letters and e-mail exchanges over
about a year, she has not provided us with the information.

Without specific information from the complainant, we can not determine if NSF has
jurisdiction and we can not evaluate the alleged misconduct. This case is closed and no
further action will be taken.

c: Investigations, IG




--
                                     Page 1 of 1                             M 99-56
